No. 20-908

IN THE

Supreme Court of the United States
SFR INVESTMENTS POOL 1, LLC,
Petitioners,
V.

M&T BANK; FEDERAL HOME LOAN MORTGAGE CORPORATION,

Respondents.

CERTIFICATE OF SERVICE

I hereby certify that I am a member in good standing of the bar of this Court and that on
this day, pursuant to Rule 29 of the Rules of this Court, I caused one copy of the Reply Brief of
Petitioner to be served upon the below-named counsel by third-party commercial carrier for
delivery within three calendar days and caused an electronic copy to be served upon the belownamed counsel by e-mail. All parties required to be served have been served.

Counsel for Respondent Federal Home
Loan Mortgage Corporation:

Counsel for Respondent M&T Bank:

Matthew A. Fitzgerald

Nathan F. Smith

MCGUIREWOODS LLP

Gateway Plaza

800 East Canal Street
Richmond, VA 23219
804-775-4716
m:fitzgerald@mcguirewoods.com

MALCOLM CISNEROS

2112 Business Center Drive

Irvine, California 92612
(949) 252-9400
nathan@mclaw.org

April 6,

